   November 7, 2005




Financial Management

Report on the Foreign Military Sales
Trust Fund Cash Management
(D-2006-011)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DCAS                  Defense Cash Accountability System
DFAS                  Defense Finance and Accounting Service
DFAS Denver           Defense Finance and Accounting Service, Denver Center
DIFS                  Defense Integrated Financial System
DSCA                  Defense Security Cooperation Agency
DSSN                  Disbursing Station Symbol Number
FICS                  Foreign Military Sales Integrated Control System
FMR                   DoD Financial Management Regulation
FMS                   Foreign Military Sales
MILDEP                Military Department
                             INSPECTOR GENERAL
                            DEPARTMENTOFDEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704



                                                                        November 7,2005
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
               SERVICE
SUBJECT: Report on the Foreign Military Sales Trust Fund Cash Management (Report
         NO.D-2006-011)

       We are providing this report for review and comment. We performed this audit in
response to a request from the Defense Security Cooperation Agency. We considered
management comments on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Defense Finance and Accounting Service concurred or partially concurred with all
findings and recommendations; however, comments were partially responsive to the
recommendations in Finding B. Therefore, we request that the Director, Defense Finance
and Accounting Service, reconsider his position and provide additional comments in
response to the final report on Finding B, Recommendations B. 1, B.2 and B.3 by
January 9,2006.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Aud.dfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed 1
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        Questions should be directed to Byron B. Harbert at (303) 676-7392 (DSN 926-
7392) or Mr. John W. Barklage at (303) 676-3298 (DSN 926-3298). See Appendix B for
the report distribution. The team members are listed inside the back cover.


                                By direction of the Deputy Inspector General for Auditing




                                             d
                                          Pa J. Granetto, CPA
                                        Assi tant Inspector General
                                        Defense Financial Auditing
                                                  Service
               Department of Defense Office of Inspector General
Report No. D-2006-011                                                  November 7, 2005
   (Project No. D2004-D000FD-0039.000)

                     The Foreign Military Sales Trust Fund
                              Cash Management

                                 Executive Summary

Who Should Read This Report and Why? This report should be read by the DoD
Chief Financial Officer and personnel in the Defense Security Cooperation Agency and
the Defense Finance and Accounting Service (DFAS) who are responsible for the
management and day-to-day operations of the Foreign Military Sales Trust Fund. The
report discusses how to improve controls and prevent abuse in this important program.

Background. The Defense Security Cooperation Agency directs, administers, and
supervises the execution of the Security Assistance programs for the Department of
Defense. Foreign Military Sales (FMS) is one of the Security Assistance programs.
FMS includes government-to-government sales of Defense articles or Defense services
from DoD stocks or through new procurements under DoD-managed contracts. The
FMS customer is generally required to pay, in advance, amounts necessary to cover costs
associated with the services or items purchased from DoD. The Department of the
Treasury holds these advance payments in the Foreign Military Sales Trust Fund. The
Trust Fund has total deposits of approximately $11 billion and annually disburses
approximately $11 billion. DFAS performs the accounting, billing, disbursing, and
collecting functions for this Security Assistance program.

Results. DFAS needs to improve internal control of the FMS cash management
program. DFAS disbursing controls were inadequate to ensure that sufficient cash was
available in applicable country accounts before making disbursements. Further, DFAS
personnel did not properly and accurately post expenditure authority to country accounts.
We estimate that DFAS disbursed between $83 million and $384 million in the second
quarter FY 2004 without expenditure authority. Without the assurance that sufficient
cash is available in applicable country accounts prior to disbursing, the use of the wrong
countries’ funds or U.S. Government funds could occur (finding A).

DFAS did not establish adequate audit trails to enable managers or auditors to verify
disbursements. As a result, we were unable to determine the validity or accuracy of FMS
disbursements and whether DFAS and Military Department personnel requested
expenditure authority prior to disbursing FMS funds (finding B). See the Finding
sections of the report for the detailed recommendations. We also reviewed the
management control program as it related to cash management of the Foreign Military
Sales Program. DFAS needs to improve the cash management procedures and ensure
that there are adequate audit trails for disbursements.

Management Comments and Audit Response. The Director of Accounting Services,
Defense Finance and Accounting Service, concurred or partially concurred with all
findings and recommendations. On the first finding, the Director concurred with five
recommendations and partially concurred with one recommendation, stating that DFAS
Denver now enforces a written policy from the Defense Security Cooperation Agency
Comptroller directing that, without exception, expenditure authority is not to be approved
pending drawdown or receipt of funds. The Director further stated that DFAS Denver
has instituted a zero tolerance position on the lack of expenditure authority requests.
When they determine that disbursements occurred without expenditure authority, DFAS
Denver requires an explanation and course of action as mandated by the DoD Financial
Management Regulation. The Director further stated that DFAS will also establish
measurements for certifying officers to ensure that compliance to expenditure authority
requirements are met.

The Director partially concurred with the second finding and concurred with all three
recommendations, stating that DFAS does have adequate audit trails for disbursements,
but the manner in which the information is supported is different than the methodology
proposed by the audit and this support could be improved. The Director also agreed that
the availability of the voucher number in the accounting system would improve the FMS
audit trail. The DFAS proposed solution was to include the audit trail information as part
of the Defense Cash Accountability System Phase V system improvement, scheduled for
implementation in September 2007.

The DFAS comments were not fully responsive. We do not agree that an adequate audit
trail exists to verify the disbursements recorded in the FMS Trust Fund accounting
system; we believe an interim solution should be explored to implement an adequate
audit trail before the Defense Cash Accountability System is implemented. DFAS
Security Assistance personnel were unable to positively identify source documents for all
the sample transactions. The absence of an adequate audit trail makes the FMS Trust
Fund vulnerable to fraud, and this material internal control weakness should be corrected
as soon as possible. DFAS should explore the requirements to add voucher number and
disbursement date to the FMS accounting system and the systems that feed it. DFAS
should then decide whether the interim change would be feasible and cost effective.

We request that the Director, DFAS, reconsider his position and provide comments to the
final report on finding B and recommendations B.1, B.2 and B.3 by January 9, 2006. See
the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                              i

Background                                    1

Objectives                                    1

Findings
     A. Internal Control of Cash Management    2
     B. Adequacy of Audit Trails               9

Appendixes
     A. Scope and Methodology                 14
         Management Control Program Review    14
         Prior Coverage                       15
     B. Report Distribution                   17

Management Comments
     Defense Finance and Accounting Service   19
Background
    The Arms Export Control Act of 1976, established in section 38, title 22, United
    States Code, as amended, gives the President authority to sell Defense articles and
    services to eligible foreign countries, generally at no cost to the U.S. Government.
    This is done through the Security Assistance programs authorized by the Foreign
    Assistance Act of 1961, as amended; the Arms Export Control Act of 1976, as
    amended; and annual appropriations acts for Foreign Operations, Export
    Financing and Related Programs.

    The Defense Security Cooperation Agency (DSCA) directs, administers, and
    supervises the execution of all Security Assistance programs for the Department
    of Defense. Foreign Military Sales (FMS) is one of the major types of Security
    Assistance programs. FMS includes government-to-government sales of Defense
    articles or Defense services from DoD stocks or through new procurements under
    DoD-managed contracts. The FMS customer is generally required to pay, in
    advance, amounts necessary to cover costs associated with the services or items
    purchased from DoD. The Department of the Treasury holds these advance
    payments in the FMS Trust Fund. The Trust Fund has total deposits of
    approximately $11 billion and annually disburses approximately $11 billion. The
    Defense Finance and Accounting Service (DFAS) performs the accounting,
    billing, disbursing, and collecting functions for this Security Assistance program.


Objectives
    Our overall audit objective was to evaluate the cash management of the FMS
    Trust Fund. Specifically, we determined whether internal control was adequate to
    ensure that:

           •   sufficient cash was available in the applicable country account before
               expenditure authority was issued to a disbursing office,

           •   expenditure authority was posted promptly and accurately to the
               country’s account, and

           •   changes to the country account balances were adequately supported.

    We also reviewed the management control program as it related to the overall
    objective. See Appendix A for a discussion of the scope and methodology, our
    review of the management control program, and prior coverage related to the
    objectives.




                                         1
            A. Internal Control of Cash Management
            Internal control was not adequate to ensure that sufficient cash was
            available in applicable country accounts before FMS disbursements were
            made. This occurred because DFAS personnel did not post expenditure
            authority promptly to country accounts. Based on a statistical sample, we
            estimate that DFAS disbursed between $83 million and $384 million in
            the second quarter FY 2004 without expenditure authority. In addition,
            $24,886 of one country’s funds were used to pay another country’s bill.
            FMS disbursements were made by numerous disbursing offices
            worldwide. DFAS personnel did not always obtain expenditure authority
            prior to disbursing because this required disbursing offices to do
            additional work, and there were no adverse consequences for those
            disbursing officers not obtaining expenditure authority. In addition,
            existing procedures allowed disbursing offices to obtain expenditure
            authority after FMS disbursements were made. Unless DFAS ensures that
            sufficient cash is available in applicable country accounts prior to
            disbursing from those accounts, the use of the wrong countries’ funds or
            U.S. Government funds could occur.


Expenditure Authority
     Budget authority for U.S. Government appropriations provides the authority to
     obligate and disburse. However, budget authority for FMS provides the authority
     only to obligate. Expenditure authority, issued by DFAS Denver Center (DFAS
     Denver), authorizes disbursing offices to disburse FMS funds. Consequently,
     unless disbursing offices obtain expenditure authority before making FMS
     disbursements, the disbursements are unauthorized.


Termination Liability
     Termination liability is a reservation of funds in a country’s account to ensure that
     the U.S. Government is protected in the event that a country defaults. DSCA
     determines amounts needed for each country account. The termination liability
     amount for each country must be on hand in either the Treasury or in an interest-
     bearing account controlled by DoD. DFAS is not authorized to make a
     disbursement if the disbursement would use any amount of the termination
     liability reserve without DSCA approval.


Criteria
     DoD 7000.14-R, “DoD Financial Management Regulation,” (FMR) volume 15,
     “Security Assistance Policy and Procedures,” April 2002, states that any
     disbursement from the FMS Trust Fund made by an organization other than


                                           2
     DFAS Denver can be made only after DFAS Denver issues expenditure
     authorization. The FMR also states that an adverse financial condition exists
     when expenditure authority is not obtained prior to disbursing FMS funds. The
     FMR requires that an adverse financial condition report be submitted to DFAS
     Denver when expenditure authority is not requested prior to disbursing. In
     addition, the FMR prohibits the use of one country’s cash to pay for another
     country’s bills, except when authorized by the country providing the cash.


Internal Control
     Internal control at DFAS was not adequate to ensure that sufficient cash was
     available in applicable country accounts before FMS disbursements were made.
     DFAS did not post expenditure authority promptly to country accounts.

     We selected a stratified random sample of 400 FMS disbursements. DFAS
     officials could not provide documentation for 133 of those disbursements,
     because DFAS had not established an adequate audit trail for disbursements (see
     finding B). In addition, 35 of our sample items were adjustments that were
     commingled with disbursements in DFAS records. We examined the remaining
     232 disbursements totaling $545 million; 47 of those disbursements, totaling
     $39.4 million, were made without expenditure authority. From our sample
     results, we estimate with 95 percent confidence that between $83 million and
     $384 million was disbursed in the second quarter of FY 2004 without expenditure
     authority, with $233 million as the midpoint estimate. According to DFAS
     Denver records, at least $229 million was disbursed in the second quarter FY
     2004 without expenditure authority obtained prior to the disbursements; however,
     only $28 million was reported to DSCA. DFAS Denver received only one
     adverse financial condition report, despite the high rate of unauthorized
     disbursements made.

     Between April 2003 and March 2004, three FMS disbursements totaling
     $26 million were made when adequate cash was not available in the applicable
     country accounts. In two instances, DFAS Denver used termination liability
     reserve for part or all of the disbursements, and in one instance, DFAS Denver
     used $24,886 of another country’s funds because the billed country had
     insufficient available cash.

     Unauthorized FMS disbursements have been a long-standing problem at DFAS.
     In August 1996, the Director of DFAS issued a memorandum to all DFAS
     Centers that stated,
            The expenditure authority must be requested for all FMS Trust Fund
            disbursements prior to issuing checks or making electronic funds
            transfer payments.




                                            3
    The memorandum also stated,
           Effective immediately, we expect all disbursing officers to achieve a
           zero tolerance in obtaining FMS expenditure authority and in reporting
           valid disbursements by FMS country and case.

    In May 2000, the Deputy Director of DFAS issued a memorandum to all DFAS
    Centers, which stated that expenditure authority requirements were not always
    met, and that the FMR required any disbursing activity that made unauthorized
    FMS disbursements to prepare an adverse financial condition report. The
    memorandum concluded with the statement,
           In order to eliminate disbursement transactions processed without
           expenditure authority, the provisions of DoDFMR 7000.14-R shall be
           followed without exception.

    Despite the two policy memorandums, DFAS disbursing offices continued to
    make unauthorized disbursements and, in only one instance did they submit an
    adverse financial condition report.

    The Government Accountability Office issued Report FGMSD-79-33,
    “Centralization: Best Long-Range Solution to Financial Management Problems
    of the Foreign Military Sales Program,” on May 17, 1979. The report cited FMS
    accounting and financial management problems, and included a recommendation
    to centralize the disbursing function.

    In DoD IG, Audit Report No. 98-164, “Internal Controls and Compliance with
    Laws and Regulations for the Defense Security Assistance Agency Financial
    Statements for FY 1997,” June 25, 1998, we reported that disbursing officers
    disbursed $494 million in FY 1997 from the FMS Trust Fund without obtaining
    expenditure authority. DFAS has not taken sufficient action to correct this
    condition, which continues to exist.


Obtaining Expenditure Authority
    Disbursing offices worldwide made numerous FMS disbursements. Disbursing
    offices did not always obtain expenditure authority prior to making disbursements
    because this required disbursing offices to do additional work, and there were no
    adverse consequences for those disbursing officers not obtaining expenditure
    authority. In addition, existing procedures allowed disbursing offices to obtain
    expenditure authority after FMS disbursements were made.

    Disbursing offices are identified by a Disbursing Station Symbol Number
    (DSSN). However, some disbursing offices had more than one DSSN. A total of
    78 DSSNs disbursed FMS funds in the second quarter of FY 2004. DFAS Denver
    officials did not know how many actual disbursing offices existed among the
    78 DSSNs. Some disbursing offices obtained expenditure authority through
    automated systems, while others used manual processes. For some disbursing
    offices, FMS disbursements were an abnormal type of disbursement. Most


                                             4
    disbursements at those offices were for DoD, which did not require obtaining
    expenditure authority. Disbursing personnel were not fully trained or motivated
    to make the additional effort to obtain expenditure authority prior to making FMS
    disbursements. Disbursing officers were not held accountable for the
    unauthorized disbursements they made. Although DFAS Denver notified
    disbursing officers of the requirement to submit adverse financial condition
    reports for all unauthorized disbursements, no enforcement mechanism was
    established.

    DFAS Denver established procedures that allowed disbursing offices to
    circumvent the requirement to obtain expenditure authority prior to making
    disbursements. DFAS Denver allowed disbursing offices to obtain expenditure
    authority up to 15 days after the end of the month in which FMS disbursements
    were made. By allowing disbursing offices to obtain expenditure authority after
    disbursing, there was no incentive for disbursing offices to obtain expenditure
    authority prior to disbursement. During the second quarter of FY 2004,
    disbursing offices disbursed $201 million without requesting expenditure
    authority until after the end of the accounting month.


Conclusion
    Current policies and procedures are inadequate to ensure that expenditure
    authority is always obtained before making FMS disbursements. When
    expenditure authority is not obtained before FMS disbursements are made, there
    is risk that the country may not have enough funds to cover the disbursement or
    that the country’s termination liability reserve would be reduced. Using
    termination liability funds to pay bills places the U.S. Government at risk in the
    event that the country subsequently defaults on the sales agreement. If FMS Trust
    Fund monies are used to cover a deficient country’s disbursement, other country
    accounts in the FMS Trust Fund are used to cover the disbursement, which
    violates the requirement that no country’s money be used for another country’s
    disbursements. DoD stewardship responsibility in maintaining accountability and
    control of all foreign country monies dictates the need to ensure that no country’s
    monies be used to pay for another country’s bills unless that country had agreed
    to the payment.

    The two memorandums to disbursing offices from high-level DFAS managers had
    no effect on performance. Managing expenditure authority and implementing
    adequate controls is a very difficult and labor-intensive process because of the
    number of disbursing offices involved. DFAS could implement strong measures
    such as holding disbursing officials accountable, establishing tough penalties, and
    forcing disbursing office compliance. However, such measures would be
    exceedingly difficult to implement, would require additional management staff at
    DFAS Headquarters, and would require an excessive amount of resources to be
    expended at disbursing offices and DFAS Headquarters.

    A more practical approach would be to establish a single disbursing office for
    FMS. All FMS disbursements would be made by the centralized disbursing
    office. Because personnel in the centralized disbursing office would process only


                                         5
    FMS disbursements, they would be fully knowledgeable of the requirement to
    obtain expenditure authority before making disbursements. Management of the
    FMS disbursing function would be greatly simplified and would be much more
    effective and efficient.

    Until a centralized disbursing office can be established, DFAS needs to establish
    effective interim controls to ensure that disbursing offices always obtain
    expenditure authority before making FMS disbursements. DFAS Denver needs to
    immediately stop the practice of allowing disbursing officers 15 days after the end
    of the month of disbursement to obtain expenditure authority.


Management Comments on the Findings and Audit Response
    The Director of Accounting Services of the Defense Finance and Accounting
    Service stated that, although expenditure authority (EA) is an important control
    and a key management information tool, there are other controls in place to
    ensure the adequacy of client deposits. Management further acknowledged that
    strengthening the EA process controls will only serve to improve cash controls
    over the FMS Trust Fund, and that DFAS has initiated actions to improve these
    controls.

    Audit Response. Expenditure authority is the key management control for
    ensuring that sufficient cash is available in a foreign country’s account before
    disbursement is made. While the other controls are important, they are not totally
    reliable for ensuring that a country has sufficient funds when a disbursement is to
    be made.


Recommendations, Management Comments, and Audit
  Response
    A. We recommend the Director, Defense Finance and Accounting Service:

           A.1. Implement adequate internal control to preclude Foreign
    Military Sales disbursements without expenditure authority.

            Management Comments: The Director of Accounting Services of the
    Defense Finance and Accounting Service concurred and stated they agree that
    DFAS must ensure that adequate internal controls are in place to ensure the EA is
    recorded for all FMS disbursements. The Director further stated that DFAS
    Denver now enforces a written policy from the DSCA Comptroller directing that,
    without exception, expenditure authority is not to be approved pending drawdown
    or receipt of funds. The Director also stated that DFAS Denver has instituted a
    zero tolerance position on the lack of EA requests. When EA and disbursements
    are compared at month-end, and a variance exists where disbursements occurred
    without EA, DFAS Denver requires an explanation and course of action as
    mandated by the DoD FMR. The Director stated that DFAS will also establish
    measurements for certifying officers to ensure that compliance to EA


                                         6
requirements are met. To further ensure EA is properly recorded, DFAS will
provide a memorandum to the DFAS Director of Policy and Requirements
emphasizing the requirement to incorporate EA controls in the design and
development of systems involved in the accounts receivable process. DFAS has
also elevated this issue to the DFAS Joint Requirements Board, who agreed to
initiate a Business Case Analysis to identify a short term solution to ensure EA is
requested and recorded.

       A.2. Implement controls at Defense Finance and Accounting
Service Denver to preclude personnel from using one country’s funds to
cover another country’s disbursement.

       Management Comments: The Director of Accounting Services of the
Defense Finance and Accounting Service concurred and stated that the individual
and supervisor involved were counseled and additional training was provided.
Management further stated that control and oversight was increased to include
another level of approval to ensure that the supervisor approves the payments.

       A.3. Ensure that disbursing officers submit adverse financial
condition reports for each unauthorized Foreign Military Sales disbursement
made.

        Management Comments: The Director of Accounting Services of the
Defense Finance and Accounting Service concurred and stated the activity
responsible for requesting EA must prepare and submit an Adverse Financial
Condition Report. The Director further stated that DFAS Denver has instituted a
zero tolerance position on the lack of EA requests. When month-end variances
exist where disbursements occurred without EA, DFAS Denver requires an
explanation and course of action as mandated by the DoD FMR. In the event the
EA is not requested, DFAS requires the disbursing and certifying officers to
coordinate to ensure the AFC Report is prepared and submitted.

       A.4. Hold disbursing officers accountable for unauthorized
disbursements made.

        Management Comments: The Director of Accounting Services of the
Defense Finance and Accounting Service concurred and stated that the activity
responsible for pulling EA should be held accountable for unauthorized
disbursements. However, the Director stated that it is the certifying officer’s
responsibility to ensure EA is requested. DFAS has drafted a memorandum for
issuance by the Deputy Chief Financial Officer, DoD, to reemphasize the
requirement to request EA for all FMS Trust Fund disbursements, clarify EA
responsibilities, establish the framework for responsibilities for obtaining EA, and
delineate the reporting requirements and disciplinary action for failure to follow
these requirements.

       A.5. Establish a single, centralized disbursing office to make all
disbursements for Foreign Military Sales.

      Management Comments: The Director of Accounting Services of the
Defense Finance and Accounting Service partially concurred and agreed that the


                                     7
establishment of a centralized disbursing office to make all disbursements for
FMS would allow centralized control of EA and would curtail unauthorized
disbursements. The Director stated they will initiate a Business Case Analysis,
which the DFAS Joint Requirements Board has agreed to oversee, to evaluate the
development of a centralized FMS disbursing entity. The Director further stated
that centralized disbursing is contingent upon the results of the study and
coordination with all of the disbursing offices and payment certification activities.

       Audit Response: Although the Director of Accounting Services of the
Defense Finance and Accounting Service only partially concurred, we consider
the comments responsive. The actions taken satisfy the intent of the
recommendation. Additional comments are not required.

      A.6. Immediately stop the Defense Finance and Accounting Service
Denver practice of allowing disbursing offices 15 days after the end of the
month to obtain expenditure authority.

       Management Comments: The Director of Accounting Services of the
Defense Finance and Accounting Service concurred and stated that DFAS Denver
has stopped accepting after-the-fact EA requests.




                                      8
            B. Adequacy of Audit Trails
            DFAS did not have an adequate audit trail for disbursements. DFAS and
            Military Department (MILDEP) disbursing station personnel were unable
            to find supporting documentation for 133 of the 400 sampled transactions
            because transaction information necessary to identify the documentation
            was not available in the accounting system. This is a long-standing
            material weakness in DFAS that has been reported in three previous DoD
            IG reports since 1993. Without the supporting documentation, we were
            unable to determine the validity or accuracy of FMS disbursements. We
            were also unable to determine whether DFAS and MILDEP personnel
            requested expenditure authority prior to disbursing FMS funds.


Defense Integrated Financial System
     In order to determine if expenditure authority was being properly requested, we
     attempted to trace disbursement transactions from the Defense Integrated
     Financial System (DIFS) to their source documentation at the various disbursing
     stations to determine the date of disbursement. DIFS is the departmental-level
     central accounting system used by the DFAS Directorate for Security Assistance,
     formerly known as the Security Assistance Accounting Center, at DFAS Denver
     to account for funds in the FMS Trust Fund. Information entered into the central
     accounting system in the form of accounting transactions is based on a
     combination of transactions received from installation-level FMS Integrated
     Control Systems (FICS) and vouchers recorded at DFAS Denver as a result of
     billing or collection and disbursement activity. Accounting transactions are
     recorded in applicable proprietary, department-level, and installation-level
     general ledger accounts. This enables DFAS Denver to prepare required
     accountability and fund status reports for the FMS Trust Fund.


Criteria
     DoD Regulation 7000.14-R, the “DoD Financial Management Regulation,”
     volume 1, “General Financial Management Information, Systems, and
     Requirements,” chapter 3, “Accounting Systems Conformance, Evaluation, and
     Reporting,” May 1993, provides the key accounting requirements for DoD
     financial management systems. Key Accounting Requirement No. 8 states that in
     any compliant system, the financial transactions for which the system accounts
     must be adequately supported with pertinent documents and source records. The
     FMR, volume 6A, “Financial Reports Roles and Responsibilities,” March 2002,
     also requires DFAS to maintain a complete and documented audit trail to support
     the reports it prepares.




                                         9
Disbursement Audit Trails
    DFAS did not have an adequate audit trail for disbursements. DFAS and
    MILDEP disbursing station personnel were unable to find supporting
    documentation for 133 of the 400 sampled transactions. DIFS maintained the
    summary records of FMS disbursements, but individual disbursements could not
    be traced from DIFS to records at disbursing stations. This is a long-standing
    material weakness in DFAS that has been reported in three previous DoD IG
    reports since 1993.

           •   In Report No. 93-123, “Consolidating Financial Statements of the
               Foreign Military Trust Fund – FY 1992,” June 24, 1993, we reported
               that DoD did not have adequate audit trails for FMS disbursements.

           •   In Report No. 96-187, “Internal Controls and Compliance with Laws
               and Regulations for the FY 1995 Financial Statements of the Defense
               Security Assistance Agency,” June 28, 1996, we reported that DFAS
               Denver did not have reasonably accessible audit trails for FMS
               disbursements.

           •   In Report No. 98-164, “Internal Controls and Compliance with Laws
               and Regulations for the Defense Security Assistance Financial
               Statements for FY 1997,” June 25, 1998, we reported that DFAS did
               not have clearly established audit trails for FMS disbursements.

    In response to our recommendation to implement adequate FMS disbursement
    audit trails in Report No. 98-164, the DoD Deputy Chief Financial Officer stated
    that an audit trail for disbursements would be established, documented, and tested
    by September 30, 1998. However, 6 years later, audit trails for FMS
    disbursements remain inadequate.


Data Requirements
    DFAS and MILDEP disbursing station personnel were unable to find supporting
    documentation because transaction information required to identify the
    documentation was not available in the accounting system. To find the
    supporting documentation at the disbursing stations, personnel need the individual
    disbursement transaction voucher number and disbursement date within DIFS.
    Although DIFS has data fields for this information, the voucher number and
    disbursing date are not the actual transaction data recorded in the field accounting
    systems. These data are not being processed to DIFS for most disbursement
    transactions.

    In addition, all of the disbursing offices did not accurately record FMS
    disbursements, and DIFS did not have edit checks on the DSSN data field.
    Because DIFS does not have edit checks on this data, the system accepted any
    information that was recorded in the DSSN field. There were 37 DSSNs recorded
    in DIFS that the DFAS Denver staff could not identify.


                                        10
    DFAS Denver officials stated the disbursement voucher number and disbursement
    date were not needed in DIFS because that information was available in the
    MILDEP feeder systems. However, DFAS and MILDEP field personnel could
    not locate documentation supporting disbursements without the voucher number
    and disbursement date. In addition, DFAS Denver officials also contended that
    validating the DSSN data would be labor intensive, time consuming, and not cost-
    effective when you look at the number of invalid DSSNs.


Conclusion
    Without supporting documentation, we were unable to determine the validity or
    accuracy of FMS disbursements. Additionally, we could not determine whether
    personnel were processing expenditure authority as required by the regulations.

    Because we could not locate supporting documentation for all FMS
    disbursements, we could not determine whether expenditure authority was
    obtained before the disbursements were made or whether cash was available in
    applicable country accounts. The inability to determine whether disbursements
    were properly recorded adversely affects the ability of DFAS and DSCA to
    manage foreign country cash. Although we reported this finding in three previous
    audit reports since 1993, DFAS has still not taken sufficient action to establish
    adequate audit trails for FMS disbursements.

    DIFS is the accounting system for cash management of the FMS Trust Fund. As
    such, the FMR requires that DIFS have an audit trail that allows auditors to
    ensure that transactions are properly accumulated and recorded in all accounts.
    The solution to the audit trail problem is not solely within DIFS. Changes may
    also need to be made to existing MILDEP and DFAS feeder systems to provide
    the data needed to establish an adequate audit trail. While DFAS has proposed
    modifications to DIFS, no changes have been made to date.


Management Comments on the Finding and Audit Response
    The Director of Accounting Services of the Defense Finance and Accounting
    Service partially concurred with the finding and stated DFAS does have adequate
    audit trails for disbursements, but that the manner in which the information is
    supported is different than the methodology proposed by the audit, and this
    support could be improved. The Director stated that since the audit trail weakness
    was first identified by the DoDIG, the DoD has implemented numerous systems
    and process enhancements that enable DFAS to establish adequate audit trails and
    achieve relational integrity to support the assertion process. The Director also
    stated that the voucher number data currently is not carried from the source
    documents and systems to DIFS, and agreed that the availability of the voucher
    number in the accounting system would improve the FMS audit trail.
    Management’s proposed solution was to include the audit trail information as part
    of the Defense Cash Accountability System (DCAS) Phase V system
    improvement, scheduled for implementation in September 2007. The Director


                                        11
    stated that, with the implementation of the DCAS Phase V, DFAS and DoD
    components will ensure that all critical document requirements are included in the
    system designs and the voucher numbers are carried from the source document to
    DIFS or its replacement system.

    Audit Response. The DFAS comments were not fully responsive. We do not
    agree that an adequate audit trail exists to verify the disbursements recorded in the
    FMS Trust Fund accounting system; we believe that an interim solution should be
    explored before the Defense Cash Accountability System is implemented. DFAS
    Security Assistance personnel were unable to positively identify source
    documents for all the sample transactions. The absence of an adequate audit trail
    makes the FMS Trust Fund vulnerable to fraud, and this material internal control
    weakness should be corrected as soon as possible. We think DFAS should
    explore other methods to add voucher number and disbursement date to the FMS
    accounting system and the systems that feed it prior to the DCAS Phase V
    implementation. DFAS should then decide whether the interim change would be
    feasible and cost effective.

    We agree that since the DoDIG first reported the audit trail weakness in 1993, the
    DoD has implemented numerous systems and process enhancements. However,
    none of these enhancements or new systems has established the link from the
    source document to the accounting system record that is required by the DoD
    FMR. DFAS personnel attempted to trace the sampled disbursements by
    matching customer, disbursing office, and disbursement amount during the same
    month. This was a cumbersome and time-consuming process that did not result in
    positive identification of the sampled disbursement. For one of those sampled
    items, 165 disbursements were made during the same month, for the same
    customer, in the exact same amount. An adequate disbursement trail would
    enable managers and auditors to readily trace a transaction from an identifying
    number or code that would provide a link between the accounting system (DIFS)
    and the disbursement record. The voucher number that disbursing offices assign
    each disbursement could serve this purpose. When reporting systems provide
    DIFS the voucher number, the positive link needed for an adequate audit trail
    would be created.


Recommendations, Management Comments, and Audit
  Response.
    We recommend the Director, Defense Finance and Accounting Service,
    establish and document an adequate audit trail for Foreign Military Sales
    disbursements. In determining how to establish the audit trail, the Director,
    Defense Finance and Accounting Service should:

           B.1. Consult with appropriate Defense Finance and Accounting
    Service disbursing officers and military department financial managers.

           Management Comments: The Director of Accounting Services of the
    Defense Finance and Accounting Service concurred, but referred to the partial
    concurrence statement in his comments on the finding. The Director stated that


                                         12
the appropriate DFAS disbursing officers and military department financial
managers will be consulted for the establishment of the audit trail under DCAS
Phase V.

       Audit Response: Management comments are partially responsive. We
do not agree that an adequate audit trail exists to verify the disbursements
recorded in the FMS Trust Fund accounting system; an interim solution should be
explored before DCAS Phase V is completed.

       B.2. Identify all changes needed to the Defense Integrated Financial
System, to other Defense Finance and Accounting Service systems, and to
military department systems.

       Management Comments: The Director of Accounting Services of the
Defense Finance and Accounting Service concurred, but referred to the partial
concurrence statement in his comments on the finding. The Director stated that
DCAS Phase V will be the mechanism for improving the audit trails.

       Audit Response: Management comments are partially responsive. We
do not agree that an adequate audit trail exists to verify the disbursements
recorded in the FMS Trust Fund accounting system; an interim solution should be
explored before DCAS Phase V is completed.

       B.3. Ensure the prompt implementation of changes needed to all
applicable systems.

       Management Comments: The Director of Accounting Services of the
Defense Finance and Accounting Service concurred, but referred to the partial
concurrence statement in his comments on the finding. The Director stated that
DCAS Phase V will be implemented for all DoD Components by September 30,
2007.

       Audit Response: Management comments are partially responsive. We
do not agree that an adequate audit trail exists to verify the disbursements
recorded in the FMS Trust Fund accounting system; an interim solution should be
explored before DCAS Phase V is completed.

     We request the Director, DFAS, to reconsider his position and provide
comments to the final report by January 9, 2006.




                                   13
Appendix A. Scope and Methodology
    DSCA requested an audit of cash management of the FMS Trust Fund. We
    reviewed the guidance used for the execution of the FMS Trust Fund as well as
    the Congressional language that established the FMS Trust Fund. Specifically,
    we reviewed: The Arms Export Control Act of 1976, established in section 38,
    title 22, United States Code as amended, and annual appropriations acts for
    Foreign Operations, Export Financing and Related Programs; The Financial
    Management Regulation, volume 15; and The Security Assistance Management
    Manual. We reviewed the procedures and processes involved in Cash
    Management of the FMS Trust Fund. We interviewed personnel and gathered
    information from the Director for Security Assistance, DFAS Denver.

    A random sample of 400 transactions was taken from a universe of 72,137
    Foreign Military Sales disbursements for the second quarter of FY 2004. The
    universe was composed of both positive and negative values with an absolute
    value of $4.4 billion. The population was divided into six strata by dollar value,
    three for positive values and three for negative values. By using the sample
    results, we projected the net disbursement amount without expenditure authority
    for the second quarter for FY 2004. During the sample review period we gathered
    data and conducted telephone interviews with personnel at various DFAS
    disbursing offices.

    We performed this audit from December 2003 through November 2004 in
    accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We used reports generated from the Defense
    Integrated Financial System (DIFS) to aid us in obtaining our sample, but we did
    not rely on the information in DIFS to support our findings. DIFS data may be
    unreliable. As information is fed into DIFS by various feeder systems data are
    consolidated, and vital information is lost. This is discussed in finding B.

    Use of Technical Assistance. The Technical Director and statisticians in the
    Quantitative Methods Division, DoD OIG designed and selected a statistical
    sample to determine the amount of expenditure authority that was not requested
    prior to disbursement. The statistician projected the results of the testing for the
    report.
    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive



                                         14
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS Denver management controls over the FMS Trust Fund
    program. Specifically, we reviewed DFAS Denver’s management controls over
    the corporate cash management. We also reviewed management’s self-evaluation
    application to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DFAS Denver as defined by DoD Instruction 5010.40.
    DFAS Denver management controls over cash management for the FMS Trust
    Fund are not adequate to ensure that sufficient cash was available in applicable
    country accounts before FMS disbursements were made. DFAS did not post
    expenditure authority promptly to country accounts. Additionally, DFAS Denver
    did not have an adequate audit trail for FMS disbursements. Recommendations
    A.1. through A.6. and B.1. through B.3., if implemented, will improve cash
    management procedures and ensure that there are adequate audit trails. A copy of
    the report will be provided to the senior official responsible for management
    controls in DFAS Denver.

    Adequacy of Management’s Self-Evaluation. DFAS Denver identified
    corporate cash management as an assessable unit. However, in its evaluation,
    DFAS Denver officials did not identify the specific material management control
    weaknesses identified by the audit because those officials did not consider the
    weaknesses to be material. However, management did identify weaknesses in the
    Fund Balance with Treasury process as material in the most recent report.


Prior Coverage
    No prior coverage has been conducted on Foreign Military Sales Trust Fund Cash
    Management during the last 5 years. However, the Department of Defense
    Inspector General has issued three reports discussing lack of audit trails for
    disbursements (finding B). Additionally, the most recent report also addresses
    expenditure authority (finding A). Unrestricted DoD IG reports can be accessed
    at http://www.dodig.mil/audit/reports.


DoD IG
    DoD IG Report No. D-1998-0164, “Internal Controls and Compliance with Laws
    and Regulations for the Defense Security Assistance Agency Financial Statements
    for FY 1997,” June 25, 1998

    DoD IG Report No. D-1996-0187, “Internal Controls and Compliance with Laws
    and Regulations for the FY 1995 Financial Statements of the Defense Security
    Assistance Agency,” June 28, 1996



                                       15
DoDIG Report No. D-1993-0123, “Consolidating Financial Statements of the
Foreign Military Sales Trust Fund – FY 1992,” June 24, 1993




                                 16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Security Cooperation Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        18
               Defense Finance and Accounting Service
               Comments
Final Report                                            Final Report
 Reference                                               Reference




                                     19
Final Report        Final Report
 Reference           Reference




               20
Final Report        Final Report
 Reference           Reference




               21
Final Report        Final Report
 Reference           Reference




               22
Final Report        Final Report
 Reference           Reference




               23
Final Report        Final Report
 Reference           Reference




               24
Final Report        Final Report
 Reference           Reference




               25
Final Report        Final Report
 Reference           Reference




               26
Final Report        Final Report
 Reference           Reference




               27
Final Report        Final Report
 Reference           Reference




               28
Final Report        Final Report
 Reference           Reference




               29
Final Report        Final Report
 Reference           Reference




               30
Final Report        Final Report
 Reference           Reference




               31
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Brice Harbert
John Barklage
Mary Reynolds
Kevin Roths
Joshua Harcharik
Mike Heers
Catherine Bird
Ann Thompson
Erin Hart
Frank Sonsini
Lusk F. Penn
Dharam Jain
